No. 19-511
IN THE

Supreme Court of the United States
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, ET AL.
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF AMICI CURIAE JOHN MCCURLEY
AND DAN DEFOREST IN SUPPORT OF
RESPONDENT
KAZEROUNI
LAW GROUP, APC
Abbas Kazerounian, Esq.
Counsel of Record
Jason A. Ibey, Esq.
245 Fischer Avenue, D1
Costa Mesa,
California 92626
Phone: (800) 400-6808
ak@kazlg.com
jason@kazlg.com

LAW OFFICES OF TODD
M. FRIEDMAN, P.C.
Todd M. Friedman, Esq.
Adrian R. Bacon, Esq
Thomas E. Wheeler
21550 Oxnard St., Ste. 780
Woodland Hills, CA 91367
Phone: (877) 206-4741
tfriedman@toddflaw.com
abacon@toddflaw.com
twheeler@toddflaw.com

Attorneys for Amici Curiae John McCurley and Dan
Deforest

i
TABLE OF CONTENTS
INTEREST OF AMICUS ............................................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ……………………………………………..5
History Of Autodialer Technology .......................... 5
The Passage Of The TCPA In 1991 ........................ 8
The 1992 and 2003 FCC Orders ........................... 14

Interpreting The Definition Of ATDS To Preclude
Dialing Systems That Dial From Stored Lists
Would Render The Consent Requirement
Irrelevant ............................................................... 20

CONCLUSION.......................................................... 25

ii
TABLE OF AUTHORITIES
Cases

ACA International v. Federal Communications
Commission, 885 F.3d 687 (D.C. Cir. 2018) ....... 3, 4
Duncan v. Walker, 533 U.S. 167 (2001) .................. 24
Hill v. Homeward Residential, Inc., 799 F.3d 544
(6th Cir. 2015) ....................................................... 21

Lamie v. U.S. Trustee, 540 U.S. 526 (2004) ............ 24
Mais v. Gulf Coast Collection Bureau, Inc., 768 F.3d
1110 (11th Cir. 2014) ............................................ 21

Marks v Crunch San Diego, LLC, 904 F.3d 1041 (9th

Cir. 2018), cert. dismissed, 139 S. Ct. 1289, 203 L.
Ed. 2d 300 (2019)............................................... 1, 20
Microsoft Corp. v. i4i Ltd. Partnership, 131 S.Ct.
2238 (2011) ............................................................ 24
Satterfield v. Simon & Schuster, Inc., 569 F.3d 946
(9th Cir. 2009)......................................................... 21
Van Patten v. Vertical Fitness Group, LLC, 847 F.3d
1037 (9th Cir. 2017)................................................ 20
Statutes
Telephone Consumer Protection Act, 47 U.S.C. § 227
et. seq. ............................................................ passim
Regulations
47 C.F.R. §§ 64.1200............................................ 19, 21
7 FCC Rcd. 8752 (F.C.C. September 17, 1992) ....... 15

In re GroupMe, Inc./Skype Commc’ns S.A.R.L.
Petition, 29 FCC Rcd. 3442 (2014) ....................... 21
In re Rules and Regulations Implementing the
Telephone Consumer Protection Act of 1991, 18
FCC Rcd. 14014 (2003).......................................... 18
In the Matter of Rules & Regulations Implementing
the Tel. Consumer Prot. Act of 1991, 23 F.C.C.
Rcd. 559, 565 (Jan. 4, 2008) .................................. 20

iii
Other Authorities
Comment of Int’l Telesystems Corp. on TCPA of 1991
(received June 1, 1992) ......................................... 16
Comment of Metrocall In The Matter Of The
Telephone Consumer Protection Act of 1991
(received June 22, 1992) ....................................... 16
Comment of Mktg. Inc. In Re: Telephone Consumer
Protection Act Of 1991 (received June 23, 1992) . 16
Comment of TeleCheck Services, Inc. on CC Dkt No.
92-90 (received June 1, 1992) ............................... 16
Hearing Before the Subcommittee on
Communications of the Committee on Commerce,
Science and Transportation, United States Senate
One Hundred Second Congress First Session July
24, 1991, Testimony of Robert Bulmash .. 10, 11, 12

In re Rules and Regs. Implementing Tel. Consumer
Protection Act of 1991, 27 FCC Rcd. 1830, at 1840

¶ 25 (Feb. 15, 2012) (“2012 Order”) ...................... 21
Reply Comments of Ameritech Operating Companies
In Re: Telephone Consumer Protection Act Of
1991, at pp. 2-3 (received June 24, 1992) ............. 17
Second Comment of Digital Systems Int’l, Inc. In The
Matter of The Telephone Consumer Protect Act of
1991 (received June 24, 1992)............................... 17
U.S. Patent No. 3,407,269 (issued Oct. 22, 1968) .. 6, 8
U.S. Patent No. 3,899,645 (issued Aug. 12, 1975) . 6, 8
U.S. Patent No. 3,943,289 (issued Mar. 9, 1976) ... 6, 8
U.S. Patent No. 3,989,899 (issued Nov. 2, 1976) ....... 7
U.S. Patent No. 4,829,563 (issued May 9, 1989) ....... 8
U.S. Patent No. 4,881,261 (issued Nov. 14, 1989) ..... 8

INTEREST OF AMICUS
Amicus Curiae are two consumers John
McCurley and Dan Deforest, who are frequent recipients of unwanted robocalls, and who have been appointed class representatives in the certified class
action of McCurley v. Royal Seas Cruises, Inc., Case
No. 17-cv-00986-BAS-AGS (S.D. Cal.).1 They are
represented in the Royal Seas Cruises action by The
Law Offices of Todd M. Friedman, P.C. (“LOTMF”)
and Kazerouni Law Group A.P.C. (“KLG”),2 who are
class action attorneys that are some of the most frequent practitioners under the Telephone Consumer
Protection Act, 47 U.S.C. § 227 et. seq. (“TCPA”),
representing consumers across the United States.
Undersigned Counsel present this Brief from a background of having collectively litigated numerous issues under the TCPA in hundreds of actions. Undersigned Counsel were also counsel for the plaintiff in
the matter of Marks v Crunch San Diego, LLC, 904
F.3d 1041 (9th Cir. 2018), cert. dismissed, 139 S. Ct.
1289, 203 L. Ed. 2d 300 (2019). LOTMF and KLG
have also advanced consumer privacy rights by regularly drafting comments to the FCC regarding interpretive rulemakings surrounding the TCPA.
The McCurley matter involves an overseas call
vendor which placed over 630 million phone calls on
––––––––––––––––––––––––
Pursuant to Supreme Court Rule 37.3, amici certify that all
parties have consented to the filing of this brief. Pursuant to
Rule 37.6, amici certify that no counsel for a party authored this
brief in whole or in part, and no persons other than amici or
their counsel made a monetary contribution to its preparation
or submission.
2 While drafting this Amicus Brief, undersigned counsel received no less than a dozen robocalls.
1

2
behalf of Royal Seas Cruises and others as part of a
widespread telemarketing campaign for which its
services were contracted. These campaigns involved
the use of a predictive dialer, which was calling
stored lists of over 50 million Americans’ telephone
numbers, that the overseas vendor was purchasing
from a variety of sources, some of which are alleged
to be questionable. The record contains evidence
that the over 630 million telemarketing calls were
placed using a prerecorded voice and were automatically dialed in a manner which did not involve any
human intervention, but for which Royal Seas Cruises contends were called with prior express written
consent.
It is worth mentioning that the type of dialing
system that was used here is exactly what the everyday American thinks of when they think of a robocall
– mass numbers of calls placed with a computer, and
not a live agent and where prerecorded voices are
used. Mr. Deforest and Mr. McCurley, were the joint
recipients of over twenty unwanted robocalls from
just this one single company. However, because the
systems function by automatically calling stored lists
of 53 million Americans’ phone numbers without any
human intervention whatsoever, based on a strict
reading of Facebook’s position, that system would not
meet the legal test for an Automatic Telephone Dialing System if this Court sides with Facebook. Such a
position defies logic and the will of the American
people, as expressed by Congress.
SUMMARY OF ARGUMENT
The Telephone Consumer Protection Act, 47
U.S.C. §§ 227, et seq., is an important consumer privacy statute designed to protect consumers from an

3
alarmingly increasing trend of unwanted and voluminous automated telephone calls. The TCPA‘s prohibition at issue (for autodialed calls and text messages) requires the calls to be made through an automatic telephone dialing system (“ATDS”), which
Congress defines as “equipment which has the capacity (A) to store or produce telephone numbers to be
called, using a random or sequential number generator; and (B) to dial such numbers.” 47 U.S.C. §
227(a)(1). The question of whether a dialing system
qualifies as an ATDS focuses primarily on two issues,
which should not be conflated:
1. Can an ATDS merely possess the capacity to
automatically dial stored lists of numbers or
must it also be able to randomly or sequentially
produce those lists of numbers?3
2. What does “capacity” mean?
In the views of Amicus Curiae, this Court
should and need only answer the former question on
this Appeal, as the circuit court level law yet remains
undeveloped on the question of capacity, and as the
FCC is currently revisiting the “capacity” standard for
purposes of rulemaking. Moreover, there is little in
the way of a factual record regarding Facebook’s texting platform in this case that would advise the Court
––––––––––––––––––––––––
As the D.C Circuit recently framed this issue “[a] basic question raised by the statutory definition is whether a device must
itself have the ability to generate random or sequential telephone numbers to be dialed. Or is it enough if the device can
call from a database of telephone numbers generated elsewhere?” ACA International v. Federal Communications Commission, 885 F.3d 687, 701 (D.C. Cir. 2018).
3

4
as to the actual capacity of Facebook’s dialing platform. Rather, the focus of the briefing is geared towards a split in authority between circuit courts on
the first question, with some courts following a similar
line of reasoning as Marks, supra, while others hold
that a system that cannot itself generate lists of numbers to be dialed is insufficient under the plain language of the statute to meet the definition of an
ATDS. The D.C. Circuit lies in the middle, observing
that “[it might be permissible for the Commission to
adopt either interpretation.” ACA International v.
Federal Communications Commission, 885 F.3d 687,
703 (D.C. Cir. 2018) (going on to observe that “the
choice between the interpretations is not without
practical significance.”)
Six Circuit Courts have now addressed the
question of what constitutes an ATDS under the Telephone Consumer Protection Act. Each has a different answer. But in the views of Amicus Curiae, none
of these decisions focus enough on the actual technologies that unquestionably were the target of Congressional concerns at the original time that the
statute was enacted. No matter what approach to
law is taken, the TCPA should be interpreted in a
manner that is consistent with the plain language of
the statute as a whole, and the clear and unambiguous intentions of Congress, as exemplified by the
Legislative History.
These six decisions all ignore a straightforward and obvious problem with the reading advanced by Facebook in this matter – predictive dialers are autodialers and they always have been. Such
technology existed well before the TCPA was enacted, and functions in the very way that most people
colloquially think of an autodialer functioning. In-

5
deed, the very concept of an automated telephonic
dialing system originated in the 1970s with the creation of and patent of predictive dialing technology.
The technology has not changed significantly since
that time. The law has likewise not changed since its
enactment. But clever lawyers making clever arguments have somehow distorted the original intent of
Congress, stretching the bounds of the law beyond its
breaking point.
Equally troubling is the fact that by requiring
a dialing platform to actually itself generate the lists
of numbers, as opposed to being capable of automatically dialing them from a list inputted by a company,
an entire codified defense for otherwise violative conduct (prior express consent) would be effectively excised from the statute rendering the provision totally
meaningless surplusage.
This Brief attempts to fill in the gaps of the
technology that gave rise to the enactment of the
Telephone Consumer Protection Act, to give context
to what an ATDS actually is and how it functions,
and make clear that predictive dialing has existed
since over a decade before the TCPA was drafted and
passed. Ambiguous syntax should not prevail over
crystal clear context.
ARGUMENT

History Of Autodialer Technology
At its root, an autodialer is simply a system
that has the capacity to automatically dial phone
numbers en masse, without human intervention.
Autodialers calling from stored lists of numbers go
back at least to 1968, with the patent of such

6
automated dialing technology. See U.S. Patent No.
3,899,645 (issued Aug. 12, 1975) (“processor for
controlling the operation of a telephone”); U.S.
Patent No. 3,407,269 (issued Oct. 22, 1968) (“system
for automatically sequentially signaling plural
different alarm messages to different telephone
subscribers”); U.S. Patent No. 3,943,289 (issued Mar.
9, 1976) (“automatic telephone caller”). Some early
autodialers were designed to call lists of phone
numbers, but at that time computer storage was very
expensive. As a result of the cost of computer
storage, some early autodialers were designed to
generate numbers, then call them. However, by the
mid 1970’s, computer storage became affordable to
the point that desktop computers began finding their
way into consumers’ homes. The breakthrough in
computer storage replaced the need to generate
phone numbers. Thus, as a result of increased
efficiency of storing data, the only software to have a
need to generate telephone numbers in the early
days of robodialing were “war dialers” used for
finding modems and fax machines, not to place
telephone calls. 2003 FCC Report and Order, ¶135
(released July 3, 2003).
The affordability of computer storage in the mid
1970’s led to “predictive dialers.” Predictive Dialers
were invented in the mid-1970’s with precisely the
same functionality as they have today. Similarly to
other autodialers, predictive dialers (colloquially
referred to as “live-agent” dialers) also call from a
stored list of phone numbers, but utilize algorithms
to “predict” when an agent will receive a live

7
answer.4 Such technology goes back to at least 1976,
and carries the same functionality of predictive
dialers today. See U.S. Patent No. 3,989,899 (issued
Nov. 2, 1976) (“telephone scheduling system”); U.S.
Patent No. 4,817,130 (issued
Mar. 28, 1989) (“call
management system with protocol converter and port
controller”).
By the early 1980’s, Davox Corporation (now
known as Aspect), marketed its predictive dialer installed on a standard desktop computer for $17,569.
This predictive dialer called numbers stored in a database, predicting how many calls to make for each
agent to get a live answer, and routing the call to a
call agent. See U.S. Patent No. 4,881,261 at p. 4 (issued Nov. 14, 1989). During this time, Radio Shack
offered a computer with autodialing software which
called from a stored list of numbers for $799. See
U.S. Patent No. 3,989,899 at p. 9 (issued Nov. 2,
1976). In 1981, police were using an autodialer that
called from a stored list of numbers to aid in their investigations. Id. at p. 10.
––––––––––––––––––––––––
As a crude example, imagine an algorithm predicts that 10%
of people will pick up a call placed to their phone. A predictive
dialer can place ten calls for every one employee agent, and
thereby accomplish the efficiency of ten people in a fraction of
the time, and for a fraction of the labor cost. This type of automated dialing results in what are referred to as “abandoned”
calls, i.e. instances where circumstances and happenstance result in the number of calls placed outpacing the number of live
agents on standby. Imagine two of the ten people picking up
the calls with only one available agent This leads to answered
calls being met with dead air and no agent to pick up. Abandoned calls are exclusively an indicator of predictive dialer
technology, and have long been a target of both Congress and
the FCC, as described below.
4

8
After Davox dominated the market in the early
1980’s, others began competing by developing a better predictive algorithm.
See U.S. Patent No.
4,829,563 (issued May 9, 1989) (“method for predictive dialing”); U.S. Patent No. 4,881,261 (issued Nov.
14, 1989) (“method for predictive pacing of calls in a
calling system”). With the development of affordable
computer storage in the mid 1970’s we saw the transition from autodialing from generated numbers to
autodialing stored numbers. Many “agent-less” autodialers called stored lists of numbers at that time.
See U.S. Patent No. 3,899,645 (issued Aug. 12, 1975);
U.S. Patent No. 3,407,269 (issued Oct. 22, 1968); U.S.
Patent No. 3,943,289 (issued Mar. 9, 1976).
By the 1980s, all Predictive dialers called from
stored lists of numbers. Thus, it is a technological
and historic fact that since at least 15 years before
the TCPA, telemarketers relied on lists of phone
numbers. It was the proliferation of predictive dialer
technology (technology that automatically dials
stored lists of numbers) that sparked consumer outrage and resulted in the passage of the TCPA.

The Passage Of The TCPA In 1991
It is against this technological backdrop that the
TCPA was enacted in 1991. Congress was aware of
this technology and enacted the law in direct response to such emerging intrusions. Such is clear
from the Legislative History.5
––––––––––––––––––––––––
5 Briefing of Duguid, and other supporting briefs sufficiently
address testimony before the House, but do not sufficiently address what happened before the Senate. This brief will thus
focus primarily on Senate testimony.

9
The Senate testimony of Robert Bulmash, president and founder of Private Citizen, Inc., is particularly of interest and worth review:
There is the incident where an autodialer that
I am aware of called folks who were trying to
call an ambulance for their father-in-law to get
them to the hospital, tying the lines.
But there is an even more insidious issue coming up in the area of automatic dialing announcing machines and that is called predictive dialers. Predictive dialers are machines
that major telemarketing service agencies
were using at the rate of perhaps 5 percent the
last year. Now between 30 to 40 percent of the
national telemarketing firms are using them
this year. Predictive dialers dial in advance of
the availability of a telemarketer to take the
call of the person who answers their phone.
What we are encountering is many people
picking up the phone, hearing dead air and
then being hung up on. The telenuisance industry, those folks who make predictive dialers, recommend to their customers that a 2 to
8-percent abandonment rate be set in using
this type of equipment.
Abandonment rate is the rate at which we are
hung up on by these machines who call us to
the phone, because the telemarketer does not
want to have to wait for. us to come to the
phone, does not want to have to wait for busy
signals, for the phones to ring, for disconnect
messages. They want live people on the phone
to go through as many folks as they can in the
shortest period of time to increase their effi-

10
ciency. We are nothing more than sources of
revenue to an industry that has lost its moral
compass, or it points only to the bank.
We talk about boiler rooms. Boiler rooms no
longer refer to flyby-night organizations. They
are rather the engines of business in this
country. Major American corporations are calling consumers at a rate of 5 to 7 million times
per month. We are not talking about boiler
rooms. We are talking about respectable businesses.
The top three or just three large telemarketing
firms in this country have the phone fire power, live phone fire power, to call 65 people per
second across the country. If that gives you a
flavor of what this is about, I hope it does. We
are up against big business and they are coming into our homes, and there is nothing that
the average consumer can do to stop that, no
regulation. We need help.
Hearing Before the Subcommittee on Communications of the Committee on Commerce, Science and
Transportation, United States Senate One Hundred
Second Congress First Session July 24, 1991, Testimony of Robert Bulmash (hereinafter “Senate Testimony”) at pg 16. Mr. Bulmash went on to testify
about the skyrocketing use of predictive dialers by
telemarketers, and the intrusiveness of their trademark feature of resulting in abandonment rate.
Increasingly, big telemarketing firms are using new machines called Predictive Dialer.
These devices try to guess the rate at which
their tele-yacking staff will be available to
make their next pitch, then dials enough

11
homes (taking into account no answers &
busys), to have the next telemark on line,
ready to be hustled as soon as the last one
hangs up.
When more folks answer than the machine expected, the device will either hang up on us or
plays a tape asking that we hold for a yacker.
Telemarketers term these hang-up calls
“phantom calls” because we will not know we.
were yanked from dinner and insulted just to
enable a telemarketing outfit to save time.
A predictive dialer’s speed is controlled by setting its “abandonment rate”, the rate at which
the machine will “overdial”, thus summoning
more citizens to their phones than their are
tele-yackers to pitch them. When this occurs,
the machines generally hang-up on us. Manufacturers of predictive dialers feel that a 25 to
89 abandonment rate “is acceptable” for sales
solicitations
…
A telemarketing trade publication recently reported that last year an estimated 5 percent.
of American telemarketing service agencies
were using predictive dialers. This year’s
(1991) estimate is around 35 percent.”

Id. at pg 19.6 He then went on to describe how such
systems are designed to call stored lists of phone
numbers.
––––––––––––––––––––––––
See also pgs. 24-25 where Mr. Bulmash and Senator Pressler
have an exchange regarding the annoyance of abandoned calls.
6

12
Of course the telemarketing industry is concerned about legislation that would protect citizens. As a result, the Direct Marketing Association encourages citizens to list themselves
with what the DMA euphemistically calls The
Telephone Preference Service. The DMA then
sells this list to firms that want to purge call
lists of folks who don’t want to be solicited.
Problem is, usage of this list is voluntary on
the part of telemarketers and the vast majority ignore it.
…
There are list brokers out there whose business it is to sell phone numbers, names, and so
on and so forth, to the telemarketing industry,
if you will.7

Id. at pgs. 19 and 27. In other words, predictive dialers which called from lists of numbers is precisely
the type of invidious and obnoxious technology that
Robert Bulmash testified to in July 24, 1991, and
which heavily influenced the enactment of the TCPA.
On a related note, Steve Hamm (administrator of
the South Carolina Department of Consumer Affairs)
testified about robodialers that delivered prerecorded messages (what are referred to in the lexicon of the TCPA as agent-less dialers). Id. at pg. 11.
Steve Hamm testified how the dialers that delivered
pre-recorded messages would sometimes be used to
call generated lists of numbers, either sequential or
––––––––––––––––––––––––
Lead brokers like this are a growing problem in the TCPA
arena, as exemplified in the McCurley v Royal Seas Cruises action.
7

13
random. However, in contrast to this, Robert Bulmash testified of Predictive Dialers (referred to in
the lexicon of the industry as agent-dialers) which
were specifically designed to call from stored lists of
numbers. Over the last couple decades, confusion
appears to have developed, in part by fault of the
FCC’s contradictions of its definitions of ATDS,
whereas in actuality, the technology was very
straightforward and widely understood in 1991 when
the statute was enacted.
The Congressional testimony shows that there
are two types of dialers, “agent” dialers (Predictive
Dialers) and “agent-less” dialers (pre-recorded messages and artificial voice).8 The reality is that the
only difference between the dialing systems about
which Steve Hamm and Robert Bulmash testified
and those used today, is computers are exponentially
faster today than in 1991. Simply stated, the dialers
operate exactly the same way only instead of thousands of calls per day, they can place millions of calls
per hour.
Obviously, the concern of Congress was to ban
such invasive technology from being used without
consumer consent. However, Facebook’s position
would necessitate a fanciful inquiry to determine
whether such calls were permissible – could that
computer generate the list of numbers on its own, before autodialing them and annoying people, or must
a list be loaded into the system? The absurdity of
this argument can be demonstrated by the example
of loading every number listed in the Chicago White
––––––––––––––––––––––––
Indeed, the 1992 FCC Order recognizes this dichotomy, as described below.
8

14
Pages into a predictive dialer and dialing every
number 10 times an hour for three days straight.
Because the phone numbers came from a list rather
than a sequential or random number generator, Facebook’s position would necessitate a finding that
such an autodialer cannot be defined as an ATDS.
Again, this history, foundation and context are
important because Facebook and many commenters
supporting Facebook’s reading of the statute would
paint a picture of an evolving set of technologies
(such as smartphones) which are far removed from
the original technology targeted by Congress at the
time of the statute. Not so. Predictive dialing technology was the same then as it is now, as demonstrated from the history of the patents on said technology, and the testimony before Congress, with the
only change being the speed of computers and the
amount of data that can be economically stored
thereon. This technology always has had the capacity to automatically dial stored lists of numbers, as
opposed to randomly generating its own lists of numbers, which is itself a form of technology (war dialing) that is hardly ever used at all, and clearly was
not what the Congressional hearings addressed.

The 1992 and 2003 FCC Orders
Much ado is made about the 2003 FCC Order and
whether it remains valid after the ACA opinion (it
does). However, there is another equally important
FCC Order issued almost immediately after the passage of the TCPA, which provides us with a historical
snapshot of what technology was targeted as an
ATDS at the time Congress passed the law, and what
automated dialing technologies the industry was us-

15
ing to contact consumers for purposes of debt collection and telemarketing at that time. History tells us
definitively that both the industry and the regulators
believed, at the time the TCPA was passed, that
Congress had clearly and unambiguously passed a
law that outlawed predictive dialers that automatically called stored lists of numbers.
In 1992, the FCC’s first ruling on the TCPA recognized the importance of restrictions on equipment
such as predictive dialers, i.e. equipment which autodialed stored lists of numbers. Referring in part to
“predictive dialers” to place live solicitation calls (7
FCC Rcd. 8752, 8756 (F.C.C. September 17, 1992))
(“1992 FCC Order”), the FCC then opined that “both
live [referring again to live solicitation calls, such as
with a predictive dialer] and artificial or prerecorded
voice telephone solicitations should be subject to significant restrictions” Id. That is because the meaning of an “autodialer” and “predictive dialer” was understood very well by the FCC in 1992. 1992 FCC
Order at ¶¶ 8-9.
In the events leading up to the 1992 FCC Order,
the comments submitted by members of the industry
suggest that they were aware that the definition of
ATDS passed by Congress would relate to their predictive dialing systems, unless the FCC exempted
those systems.
Commenter Telecheck Services, Inc. in its comment to the FCC stated “Debt collection is a noncommercial use. It is a non-telemarketing use of an
autodialer or predictive dialer which is not intended
to be protected under TCPA…In the collection business predictive dialer are often used to expedite the
collection process. The dialer randomly dials num-

16
bers entered into its system and connects an available live operator to the call when it is answered.” See
Comment of TeleCheck Services, Inc. on CC Dkt No.
92-90 (received June 1, 1992), available at
https://ecfsapi.fcc.gov/file/1027570001.pdf.
Commenter International Telesystems Communications petitioned the FCC to confirm that live operator calls made by a nonprofit organization using
predictive dialers be held exempt under the TCPA
since they can immediately deliver answered calls to
a live operator. See Comment of Int’l Telesystems
Corp. on TCPA of 1991 (received June 1, 1992),

available
https://ecfsapi.fcc.gov/file/1027580001.pdf.

at

Commenter Metrocall describes a nightmarish
situation where a predictive dialer operated by a
newspaper subscription operator caused a serious
service outage, and requested the FCC not provide
any exemptions for use of such invidious technology.
See Comment of Metrocall In The Matter Of The Telephone Consumer Protection Act of 1991 (received
June
22,
1992),
available
at
https://ecfsapi.fcc.gov/file/1037040001.pdf.
Commenter Mkt. Incorporated requested an exemption for predictive dialer technology used by survey companies. See Comment of Mktg. Inc. In Re:
Telephone Consumer Protection Act Of 1991 (received
June
23,
1992),
available
at
https://ecfsapi.fcc.gov/file/1037050001.pdf.
Commenter Ameritech Operating Companies
touted the business efficiencies advanced by use of
predictive dialers as a justification for exempting use
of this invasive technology. See Reply Comments of
Ameritech Operating Companies In Re: Telephone

17
Consumer Protection Act Of 1991 (received June 24,
1992),
available
at
https://ecfsapi.fcc.gov/file/1037500001.pdf.
Commenter Digital Systems created a series of
tables summarizing the position of many other commenters regarding use of predictive dialer technology. See Second Comment of Digital Systems Int’l,
Inc. In The Matter of The Telephone Consumer Protect Act of 1991, at pp. 4-14 (received June 24, 1992),

available
https://ecfsapi.fcc.gov/file/1037550001.pdf.

at

This represents just some of the dozens of comments from businesses and interest groups surrounding the use of predictive dialers at the time immediately following the enactment of the TCPA. Much
can be gleaned from this history, most importantly
that it was well understood by those in the debt collection and telemarketing industries that a predictive dialer that calls from a defined list of numbers
was an ATDS under the plain language of the TCPA.
Why else would all of these businesses be asking in
unison for the FCC to implement rules exempting
certain types of calls and methods of calls from liability under the statute?
The FCC subsequently not only took no action relating to predictive dialers, but proceeded to take increased action against users of predictive dialers over
the course of the next twenty-three years, starting
with the 1992 FCC Order. In 2003, the FCC issued a
more comprehensive order relating to predictive
dialers with specificity. In re Rules and Regulations

Implementing the Telephone Consumer Protection
Act of 1991, Report and Order, 18 FCC Rcd. 14014,

18
14115 ¶¶ 131-134 (2003) (“2003 FCC Order”). There,
the FCC describes a predictive dialer as follows:
A predictive dialer is an automated dialing system that uses a complex set of
algorithms to automatically dial consumers’ telephone numbers in a manner
that “predicts” the time when a consumer will answer the phone and a telemarketer will be available to take the call.
Such software programs are set up in
order to minimize the amount of downtime for a telemarketer. In some instances, a consumer answers the phone
only to hear “dead air” because no telemarketer is free to take the call
…
a predictive dialer is equipment that dials numbers and, when certain computer software is attached, also assists telemarketers in predicting when a sales
agent will be available to take calls.
…
Predictive dialers initiate phone calls
while telemarketers are talking to other
consumers and frequently disconnect
those calls when a telemarketer is unavailable
to
take
the
next
call…Predictive dialers reduce the
amount of down time for sales agents,
as consumers are more likely to be on
the line when the telemarketer completes a call.
See 2003 FCC Order at ¶¶ 8 fn 31, 131, and 146.
Such a description bears striking resemblance to

19
the technology described above that was present in
the 1970s, 1980s, and which was described by Robert
Bulmash during the Senate hearings, as well as that
which is described in the comments to the FCC prior
to the 1992 FCC Order. That is because the technology had not changed in pertinent part – it is still operating the same way as it always has. It is also
worth noting that abandoned calls are exclusive to
predictive dialers, and that the surrounding regulations target such conduct as invidious and unlawful
in other aspects of the statute. See 47 C.F.R. §§
64.1200(a)(5-7). Predictive dialers always have dialed stored lists of numbers, through preprogrammed
automated campaigns, using algorithms that are
based on a preprogrammed abandonment rate entered into the system by its operator. Predictive
dialers are as much ancient technology, as they are
obnoxious.
Simply stated, number self-generation is a red
herring. It is completely historically inaccurate to say
that when the TCPA was enacted, Congress was not
targeting technology which could autodial stored lists
of numbers. It is likewise completely historically inaccurate to say that the FCC’s position on this issue
has changed over the last thirty years. And it is inaccurate as well to suggest that the technology has
changed seismically to the point where this particular prong of the ATDS analysis is and should be
viewed in a different light. While there is yet much
to debate about what the word capacity means,9 in
––––––––––––––––––––––––
9 The Court should leave this debate about capacity for another day, given that Circuit Courts have yet to fully brew this
issue, and given that the FCC is still in revised Rulemaking
(Footnote continued)

20
the context of the TCPA, there is no legitimate debate that with respect to the question of whether an
autodialing system must have the ability to selfgenerate the lists of numbers that it robodials thereafter. The answer is no. The Ninth Circuit got it
right in Marks v Crunch San Diego, LLC.

Interpreting The Definition Of ATDS To Preclude
Dialing Systems That Dial From Stored Lists Would
Render The Consent Requirement Irrelevant
It is an undisputed cornerstone of TCPA litigation
that companies are permitted to autodial people if
they have prior express consent to do so. See 47
U.S.C.A. §§ 227(b)(1)(A) (“It shall be unlawful for any
person within the United States, or any person
outside the United States if the recipient is within
the United States-- (A) to make any call (other than a
call made for emergency purposes or made with the
prior express consent of the called party) using any
automatic telephone dialing system or an artificial or
prerecorded voice”).
Courts and the FCC have
generally held that consent is an affirmative defense
to any otherwise-violative conduct under the TCPA.
Van Patten v. Vertical Fitness Group, LLC, 847 F.3d
1037 (9th Cir. 2017); In the Matter of Rules &
Regulations Implementing the Tel. Consumer Prot.
Act of 1991, 23 F.C.C. Rcd. 559, 565 (Jan. 4, 2008).
An autodialer that is required to self-generate its
own lists of numbers to dial, as opposed to dialing
from a stored list, could never be used in compliance
––––––––––––––––––––––––

discussions after the ACA opinion rejected the 2015 FCC Order
and sent the FCC back to the drawing board.

21
with the TCPA because there is by definition a lack
of consent from an individual whose number is
randomly generated.
These two concepts are
mutually exclusive.
Prior express consent can mean different things
in different contexts. Generally speaking, consent
must be express, i.e. “clearly and unmistakably
stated.” Satterfield v. Simon & Schuster, Inc., 569
F.3d 946, 955 (9th Cir. 2009). In the context of debt
collection, the mere provision of a phone number to a
creditor, in writing or orally, is sufficient to satisfy
the conditions of the defense. Mais v. Gulf Coast
Collection Bureau, Inc., 768 F.3d 1110, 1119–21
(11th Cir. 2014). As the FCC has held, consent may
be provided through an intermediary.
In re
GroupMe, Inc./Skype Commc’ns S.A.R.L. Petition, 29
FCC Rcd. 3442, 3447 (2014). In the context of
solicitation communications, express consent must
adhere to more rigid requirements, including having
to be in writing, as well as meet several additional
stringent disclosure requirements. In re Rules and

Regs. Implementing Tel. Consumer Protection Act of
1991, 27 FCC Rcd. 1830, at 1840 ¶ 25 (Feb. 15, 2012)
(“2012 Order“); 47 C.F.R. §§ 64.1200(f)(1)(8-12); Hill
v. Homeward Residential, Inc., 799 F.3d 544, 552

(6th Cir. 2015) (“the FCC’s regulations for
telemarketers now require a more specific type of
consent—namely, that the called party consents, in
writing, to being called by an auto-dialer.”)
Logistically, it is imperative to note that the
reason companies use autodialers is because they can
reach large numbers of people with very little
expense in labor. For example, a major bank may
wish to send its credit card customers reminders via
automated call or text message letting them know

22
their monthly payment is late. Customers provide
their phone numbers to these legitimate businesses
for legitimate reasons, and those numbers make
their way into the banks’ predictive autodialing
platforms, which are then programmed to send these
reminders in advance of escalating collections
activity. This is, in theory, legitimate robocalling,
because consumers consented to it.
As the FCC has held, including in the 2015 FCC
Order, companies are in the best position to take
measures to ensure that their robodialing campaigns
are reaching the consumers who consented to such
(in many cases) mutually-beneficial communications.
The most basic way this is done is by using
autodialers, such as the predictive dialers described
herein, which only call lists of phone numbers that
were provided by the consumers for the purpose of
receiving such automated communications. This
dynamic is codified in the language of the TCPA, and
also was discussed during the same aforementioned
Senate Hearings. See Senate Testimony at pg. 13
(“The use of automatic dialing machines which play
recorded messages should be reasonably restricted,
except where a called party has given prior consent
to receive the recorded message”). It is also a critical
component of the 2013 telemarketing regulations
regarding the written consent requirements for
marketing calls, as described above.
It is not only fanciful to imagine, but
axiomatically impossible, for there to exist
automated dialing technology that self-generates
lists of numbers, in the same universe where stored
lists of numbers belonging to consumers that have
consented to receive autodialer communications are
being exclusively called. And yet, entire regulatory

23
schemes exist to create standards for what is and is
not prior express consent. Dozens of circuit cases
talk about what it means to consent to a robocall.
The plain language of the statute codifies an
affirmative defense for users of autodialer technology
so long as they call only those people that consent to
receive such calls. Regulations have been adopted.
Responsible companies (including Facebook) spend
billions of dollars annually attempting to comply
with these consent requirements.
Facebook’s own position in other aspects of the
case at hand undermines its view of what constitutes
an ATDS. Facebook’s position is that its texting
platform was designed to send messages only to
users, for verification purposes. Facebook obviously
is trying to reach people who consented to receive
these text messages. Perhaps there are problems
with its system, which led to privacy invasions of
Duguid and others, but putting this aside, Facebook
is trying to contact people who it believes consented
to be contacted in this manner.
Just like a
responsible debt collector trying to contact a debtor.
Just like a responsible telemarketer trying to contact
a customer who actually expressed interest in their
services. Just like a responsible banking institution
notifying their customer of a fraud alert on their
credit card.
Just like an airline notifying a
passenger of a flight delay. Just like a package
service delivery company notifying us that our
package has arrived. When done right, autodialing
can be useful. That is why we can consent to it. But
we cannot consent to autodialing if by axiom
autodialing cannot be performed to a limited list of
those who have so consented. And so it follows that
by requiring self-generation as a component of the

24
statute, Facebook’s definition of ATDS axiomatically
excises an entire canon of codified doctrine right out
of the plain language of the statute. These two
concepts cannot be reconciled.
As this Court has held numerously, reading a
statute in a manner which renders core portions of
the statute mere surplusage should be avoided when
interpreting a statute. See Duncan v. Walker, 533
U.S. 167, 174, (2001) (“We are especially unwilling”
to treat a statutory term as surplusage “when the
term occupies so pivotal a place in the statutory
scheme”). The canon assists “where a competing
interpretation gives effect to every clause and word of
a statute.” Microsoft Corp. v. i4i Ltd. Partnership,
131 S.Ct. 2238, 2240 (2011).
Consent is an inextricable component of the
TCPA, as it is in any invasion of privacy statute,
because it is not an invasion of privacy if it has been
permitted. Guests are not intruders by virtue of
their mere presence in one’s homes. Yet the plain
language of the TCPA can clearly be read two ways
with respect to whether or not an ATDS must selfgenerate the numbers it autodials.
While it is true that the canon against superfluity
is not absolute (Lamie v. U.S. Trustee, 540 U.S. 526,
536 (2004)), it is likewise true that there exists a
reading of the TCPA where autodialers do not selfgenerate lists, as the D.C. Circuit recognized in ACA,
and multiple Circuit Courts have held as well. But
there is no TCPA without the affirmative defense of
consent, and consent cannot coexist with autodialers
that cannot dial stored lists of numbers. Therefore,
this case represents an ideal candidate for
application of the canon against superfluity.

25
CONCLUSION
For the foregoing reasons, any interpretation of
the TCPA’s definition of ATDS which precludes a
finding that a predictive dialer is an autodialer, or
which results in rendering the consent requirements
mere surplusage are wrong, plain and simple. This
can be demonstrated by a review of the statute as a
whole, by the Legislative History, and by public
comments surrounding the 1992 FCC Rulemaking
interpretation of the ATDS standard.
If our goal is to ensure that the policies underlying the TCPA are advanced by an expansive definition of the statute that protects consumer privacy,
then even Facebook would agree with the positions
advanced herein. But if our goals are more narrowly
tailored towards a strict interpretation of the static
law that was enacted in 1991, so as to parse what
Congress originally meant when it defined an ATDS,
the answer is no less clear when analyzed in the historical context of the technology and concerns of the
time. Either way, Facebook’s reading is wrong, as a
matter of syntax, as a matter of context, as a matter
of history, and as a matter of policy. It is right in no
aspect, and the Ninth Circuit’s holding in Duguid
and by extension in Marks should be upheld in pertinent part.

26

Respectfully submitted,
KAZEROUNI
LAW GROUP, APC
Abbas Kazerounian, Esq.
Counsel of Record
Jason A. Ibey, Esq.
245 Fischer Avenue, D1
Costa Mesa,
California 92626
Phone: (800) 400-6808
ak@kazlg.com
jason@kazlg.com

October 23, 2020

LAW OFFICES OF TODD
M. FRIEDMAN, P.C.
Todd M. Friedman, Esq.
Adrian R. Bacon, Esq
Thomas E. Wheeler
21550 Oxnard St., Ste. 780
Woodland Hills, CA 91367
Phone: (877) 206-4741
tfriedman@toddflaw.com
abacon@toddflaw.com
twheeler@toddflaw.com

